NO. 19-941

In the
Supreme Court of the United States
BILLY DANIEL RAULERSON, JR.,
Petitioner,
V.

WARDEN,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT
BRIEF OF AMICI CURIAE DISABILITY RIGHTS
LEGAL CENTER, NATIONAL DISABILITY RIGHTS
NETWORK, CENTER FOR PUBLIC
REPRESENTATION, GEORGIA ADVOCACY
OFFICE, STEPHEN N. XENAKIS, JAMES R.
MERIKANGAS, AND STEVEN EIDELMAN IN
SUPPORT OF PETITIONER
DONALD B. VERRILLI, JR.
Counsel of Record
ADELE M. EL-KHOURI
MUNGER, TOLLES & OLSON LLP
1155 F Street NW 7th Floor
Washington, D.C. 20004
(202) 220-1100
Donald.Verrilli@mto.com
Counsel For Amici Curiae

i
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE ................................. 1
SUMMARY OF ARGUMENT ..................................... 1
ARGUMENT ................................................................ 3
I.

II.

Intellectual Disability Is A Complex
Condition The Diagnosis Of Which
Requires Comprehensive Assessment
And Clinical Judgment. .................................... 3
A.

The three criteria for intellectual
disability must be assessed
together through a clinical
assessment by a mental health
professional. ............................................ 4

B.

Clinical judgment plays an
essential role in the diagnosis of
intellectual disability. ............................ 9

The Beyond A Reasonable Doubt
Standard Creates An Unacceptable Risk
That Individuals With Intellectual
Disability Will Be Executed By Inviting
Jurors To Rely On Stereotypes That Are
Inconsistent With Accepted Clinical
Norms. ............................................................. 11

CONCLUSION .......................................................... 23
APPENDIX ................................................................ 1a

ii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Addington v. Texas,
441 U.S. 418 (1979) .............................................. 11
Atkins v. Virginia,
536 U.S. 304 (2002) .......................................... 1, 13
Brumfield v. Cain,
135 S. Ct. 2269 (2015) .......................................... 19
Hall v. Florida,
572 U.S. 701 (2014) .......................................passim
Moore v. Texas,
137 S. Ct. 1039 (2017) ...................................passim
Moore v. Texas,
139 S. Ct. 666 (2019) .............................................. 3
STATE STATUTES
Ga. Code Ann. § 17-7-131(c)(3) .................................. 12
OTHER AUTHORITIES
American Association on Intellectual &
Developmental Disabilities,
Intellectual Disability: Definition,
Classification, and Systems of
Supports (11th ed. 2012) ...............................passim
American Association on Intellectual &
Developmental Disabilities, User’s
Guide To Accompany the 11th
Edition of Intellectual Disability:
Definition, Classification, and
Systems of Supports (2012) .................................... 3

iii
TABLE OF AUTHORTIES
(Continued)
Page(s)
American Educational Research
Association, Standards for
Educational and Psychological
Testing (2014) ....................................................... 11
American Psychiatric Association,
Diagnostic and Statistical Manual of
Mental Disorders (5th ed. 2013) ...................passim
American Psychological Association,
Ethical Principles of Psychologists
and Code of Conduct (2017) ................................. 11
American Psychological Association,
Specialty Guidelines for Forensic
Psychology (2013) ................................................. 11
Richard J. Bonnie, The American
Psychiatric Association’s Resource
Document on Mental Retardation and
Capital Sentencing: Implementing
Atkins v. Virginia, 32 J. Am.
Academy Psychiatry & Law 304
(2004) .................................................................... 10
Anton Dosen & Jan J. M. Gielen,
Depression in Persons with Mental
Retardation: Assessment and
Diagnosis, in Mental Health Aspects
of Mental Retardation: Progress in
Assessment and Treatment (Robert
J. Fletcher & Anton Dosen eds.,
1993)...................................................................... 16

iv
TABLE OF AUTHORTIES
(Continued)
Page(s)
Robert B. Edgerton, The Cloak of
Competence (2d ed. 1993) ..................................... 20
James W. Ellis, Caroline Everington &
Ann M. Delpha, Evaluating
Intellectual Disability: Clinical
Assessments in Atkins Cases, 46
Hofstra L. Rev. 1305 (2018) ..........................passim
Sigan L. Hartley & William E. MacLean,
Jr., Depression in Adults with Mild
Intellectual Disability: Role of Stress,
Attributions, and Coping, 114 Am. J.
Intell. & Dev. Disabilities 147 (2009) .................. 16
Ruth Luckasson & Robert L. Schalock,
Standards to Guide the Use of
Clinical Judgment in the Field of
Intellectual Disability, 53 Intell. &
Dev. Disabilities 240 (2015) ................................. 10
J. Gregory Olley, Adaptive Behavior
Instruments, in The Death Penalty
and Intellectual Disability (Edward
A. Polloway ed., 2015) ............................................ 7
Steven Reiss & Betsey A. Benson,
Psychosocial Correlates of Depression
in Mentally Retarded Adults: I.
Minimal Social Support and
Stigmatization, 89 Am. J. Mental
Deficiency 331 (1985) ........................................... 16

v
TABLE OF AUTHORTIES
(Continued)
Page(s)
Daniel J. Reschly, Documenting the
Developmental Origins of Mild
Mental Retardation, 16 Applied
Neuropsychology 124 (2009) ................................ 22
Robert L. Schalock & Ruth Luckasson,
Clinical Judgment (2d ed. 2014) .......... 9, 10, 18, 22
Robert L. Schalock et al., The Renaming
of Mental Retardation:
Understanding the Change to the
Term Intellectual Disability, 45
Intell. & Dev. Disabilities 116 (2007) .................... 1
Matthew H. Scullin, Large State-Level
Fluctuations in Mental Retardation
Classifications Related to
Introduction of Renormed Intelligence
Test, 111 Am. J. Mental Retardation
322 (2006) ............................................................. 22
Martha E. Snell & Ruth Luckasson et
al., Characteristics and Needs of
People with Intellectual Disability
Who Have Higher IQs, Intell. & Dev.
Disabilities 220 (2009).......................................... 13
Marc J. Tassé, Adaptive Behavior
Assessment and the Diagnosis of
Mental Retardation in Capital Cases,
16 Applied Neuropsychology 114
(2009) .................................................... 7, 13, 17, 21

vi
TABLE OF AUTHORTIES
(Continued)
Page(s)
Marc J. Tassé et al., The Construct of
Adaptive Behavior: Its
Conceptualization, Measurement, and
Use in the Field of Intellectual
Disability, 117 Am. J. Intell. & Dev.
Disabilities 291 (2012)...................................... 8, 20
Marc J. Tassé & John H. Blume,
Intellectual Disability and the Death
Penalty: Current Issues and
Controversies (2018) ......................... 4, 9, 10, 11, 18

1
INTEREST OF AMICI CURIAE 1
Amici curiae are leading disability rights
organizations and individual mental disability
professionals who are clinicians, scholars, and
experts in the field of mental disability. 2
SUMMARY OF ARGUMENT
In Atkins v. Virginia, this Court held that the
Eighth Amendment’s ban on cruel and unusual
punishment forbids the execution of criminal
offenders with intellectual disability. 3 536 U.S. 304,
321 (2002). The Constitution thus proscribes state
laws that “‘creat[e] an unacceptable risk that persons
with intellectual disability will be executed.’” Moore
v. Texas, 137 S. Ct. 1039, 1044 (2017) (“Moore I”)
(quoting Hall v. Florida, 572 U.S. 701, 704 (2014)).
Enforcing that fundamental principal requires a level
Pursuant to Rule 37.6, amici represent that this brief was
written by counsel for amici, and not by counsel for any party.
No outside contributions were made to the preparation or
submission of this brief. Pursuant to Rule 37.2, amici represent
that all parties were provided notice of amici’s intention to file
this brief at least 10 days before its due date and that the
parties have consented to the filing of this brief.

1

A summary of the qualifications and affiliations of amici is
provided as an appendix to this brief.

2

Consistent with current clinical practice, in this brief, unless
quoting a source, amici use the term “intellectual disability” to
refer to what used to be termed “mental retardation.” This
change in terminology is a result of the stigma associated with
the term “mental retardation,” and reflects person-first
language accepted by the medical community. It is not a change
in substance. See Robert L. Schalock et al., The Renaming of
Mental Retardation: Understanding the Change to the Term
Intellectual Disability, 45 Intellectual & Developmental
Disabilities 116 (2007).

3

2
of procedural rigor adequate to determine whether an
individual has intellectual disability. That, in turn,
requires courts to focus on “the clinical definitions of”
intellectual disability. Hall, 572 U.S. at 720.
The “generally accepted, uncontroversial” clinical
standards for diagnosing intellectual disability are
well-established in the medical profession. Moore I,
137 S. Ct. at 1045. It is equally well-established that
no single diagnostic criterion proves or disproves
intellectual disability, Hall, 572 U.S. at 723, and that
it is error to rely on lay stereotypes to make these
judgments, Moore I, 137 S. Ct at 1052.
As the record in this case vividly illustrates,
Georgia’s outlier standard requiring capital
defendants to prove intellectual disability beyond a
reasonable doubt allows a jury to find reasonable
doubt by relying on one or more mere stereotypes
about intellectual disability or on seemingly
inconsistent diagnostic evidence—even though, under
accepted clinical standards, such evidence would not
preclude a diagnosis of intellectual disability. Indeed,
because intellectual disability is a complex condition
requiring comprehensive assessment of multiple
criteria and application of clinical judgment, in many
cases it will simply be impossible to prove intellectual
disability beyond a reasonable doubt.
Georgia’s
beyond a reasonable doubt standard therefore creates
significant risks that individuals with intellectual
disability will be executed. For these reasons, amici
believe that the petition presents a question of
exceptional importance meriting this Court’s review,
and submit this brief to present relevant medical
literature that can provide context for this Court’s
consideration of the case.

3
ARGUMENT
I. Intellectual
Disability
Is
A
Complex
Condition The Diagnosis Of Which Requires
Comprehensive Assessment And Clinical
Judgment.
This Court has repeatedly recognized the validity
of the unanimous professional consensus on the
criteria applied to diagnose intellectual disability.
Moore I, 137 S. Ct. at 1045; Hall, 572 U.S. at 710-13;
see also Moore v. Texas, 139 S. Ct. 666, 668 (2019)
(“Moore II”). The definition of intellectual disability
has three elements: (1) significant impairments in
intellectual functioning; (2) deficits in adaptive
functioning; and (3) onset of the disability before the
age of 18. See Am. Psychiatric Ass’n, Diagnostic and
Statistical Manual of Mental Disorders 33 (5th ed.
2013) (“DSM–5”); Am. Ass’n on Intellectual &
Developmental Disabilities, Intellectual Disability:
Definition, Classification, and Systems of Supports 27
(11th ed. 2010) (“AAIDD–11”); AAIDD, User’s Guide
To Accompany the 11th Edition of Intellectual
Disability: Definition, Classification, and Systems of
Supports 1 (2012); see also Moore II, 139 S. Ct. at 668
(citing DSM-5 and AAIDD-11). 4 These elements
“focus[] on a commonly accepted consensus that has
endured for more than half a century.” James W.
Ellis, Caroline Everington & Ann M. Delpha,
Although the definitions of intellectual disability in the DSM-5
and AAIDD-11 contain minor variations in terminology, they
are substantively the same, see James W. Ellis, Caroline
Everington & Ann M. Delpha, Evaluating Intellectual Disability:
Clinical Assessments in Atkins Cases, 46 Hofstra L. Rev. 1305,
1323-24 (2018), and the variations are not relevant for purposes
of this brief.
4

4
Evaluating
Intellectual
Disability:
Clinical
Assessments in Atkins Cases, 46 Hofstra L. Rev. 1305,
1323 (2018) [hereinafter “Clinical Assessments in
Atkins Cases”]. The definition takes into account
that “[i]ntellectual disability is a multifaceted and
complex condition that comes in a wide range of
clinical presentations.” Marc J. Tassé & John H.
Blume, Intellectual Disability and the Death Penalty:
Current Issues and Controversies 1 (2018)
[hereinafter “Intellectual Disability and the Death
Penalty”].
A. The three criteria for intellectual
disability must be assessed together
through a clinical assessment by a mental
health professional.
The diagnosis of intellectual disability requires a
comprehensive assessment of all three diagnostic
criteria in conjunction, “based on multiple data
points” that “include giving equal consideration to
significant limitations in adaptive behavior and
intellectual functioning.” AAIDD-11 at 28; see also
DSM-5 at 39 (“A comprehensive evaluation includes
an assessment of intellectual capacity and adaptive
functioning; identification of genetic and nongenetic
etiologies; evaluation for associated medical
conditions (e.g., cerebral palsy, seizure disorder); and
evaluation for co-occurring mental, emotional, and
behavioral disorders.”).
1. Intellectual Functioning. The first criterion for
intellectual disability requires the individual to have
significant limitations in intellectual functioning.
Intellectual functioning consists of the ability to
reason, make plans, solve problems, think abstractly,
comprehend complex ideas, make judgments, and

5
learn from instruction and experience. DSM-5 at 33,
37; AAIDD-11 at 31.
As this Court recognized in Hall, 572 U.S. at 71213, evaluation of general intellectual functioning
customarily involves the use of individually
administered,
appropriate,
comprehensive,
standardized IQ tests, DSM-5 at 37; AAIDD-11 at
31. 5 Nevertheless, it is improper clinical practice to
use only an IQ test score cutoff to assess general
intellectual functioning or to make a determination
that a person does not have intellectual disability.
See Hall, 572 U.S. at 712-13; DSM-5 at 37; AAIDD-11
at 31. In particular, as this Court emphasized in
Hall, an IQ score derived from a test cannot alone be
considered “final and conclusive evidence of a
defendant’s intellectual capacity, when experts in the
field would consider other evidence,” and an IQ score
“should be read not as a single fixed number but as a
range,” in part because each IQ test has a standard
error of measurement [“SEM”], and the score on any
given test “may fluctuate for a variety of reasons.”
Id.
2. Adaptive Functioning. The second criterion for
intellectual disability requires the individual to have
significant limitations in adaptive functioning.
Adaptive functioning is the “collection of conceptual,
social, and practical skills that have been learned and
are performed by people in their everyday lives.”
“The ‘significant limitations in intellectual functioning’
criterion for a diagnosis of intellectual disability is an IQ score
that is approximately two standard deviations below the mean,
considering the standard error of measurement for the specific
instruments used and the instruments’ strengths and
limitations.” AAIDD-11 at 31.

5

6
AAIDD-11 at 45. “Deficits in adaptive functioning . . .
refer to how well a person meets community
standards of personal independence and social
responsibility, in comparison to others of similar age
and sociocultural background.”
DSM-5 at 37. 6
Adaptive functioning is multidimensional across
three domains: (1) conceptual skills, including
language, reading and writing, and mathematical
reasoning; (2) social skills, including interpersonal
skills, empathy, and social judgment and problem
solving; and (3) practical skills, including personal
care, occupational skills, schedules, and task
organization. AAIDD-11 at 44; DSM-5 at 37.
To have significant limitations in adaptive
functioning, an individual must either have a
significant impairment in any one of the domains or a
significant impairment overall. AAIDD-11 at 46-47;
DSM-5 at 37-38. There is an accepted clinical
consensus that intellectual disability can and should
be diagnosed when the individual has sufficient
deficits in adaptive functioning, regardless of whether
the individual also has relative strengths in social or
physical capabilities, either in some adaptive skill
areas or even in one aspect of one adaptive skill area.
“The purpose of this element of the definition is to make sure
that the impairment indicated in psychometric tests actually
has a real-world impact on the individual’s life and thus is a
disabling condition rather than merely a testing anomaly.”
Clinical Assessments in Atkins Cases at 1374. Because adaptive
functioning is a better indicator of the individual’s ability to
function in society, the clinical definition classifies levels of
severity in intellectual disability according to adaptive
functioning rather than IQ score. See DSM-5 at 33 (“The
various levels of severity are defined on the basis of adaptive
functioning, and not IQ scores, because it is adaptive
functioning that determines the level of supports required.”).

6

7
See AAIDD–11 at 47 (“[S]ignificant limitations in
conceptual, social, or practical adaptive skills [are]
not outweighed by the potential strengths in some
adaptive skills.”); DSM–5 at 33, 38 (explaining that
adaptive functioning inquiry should focus on
“[d]eficits in adaptive functioning”); Moore I, 137 S.
Ct. at 1050 (“[T]he medical community focuses the
adaptive-functioning inquiry on adaptive deficits.”).
The assessment of adaptive functioning relies on
standardized
measures,
including
detailed
neuropsychological testing. AAIDD-11 at 47; DSM-5
at 37; see J. Gregory Olley, Adaptive Behavior
Instruments, in The Death Penalty and Intellectual
Disability 187-98 (Edward A. Polloway ed., 2015). 7 It
also requires collecting records and information
regarding an individual’s functioning over time and
in disparate settings. AAIDD-11 at 47; DSM-5 at 37.
That
information
frequently
comes
from
knowledgeable
respondents,
including
the
individual’s parents, other family members, teachers,
employers,
and
friends,
and
educational,
employment, and medical records. AAIDD-11 at 47;
DSM-5 at 37; Hall, 572 U.S. at 712 (recognizing
“substantial and weighty evidence of intellectual
disability as measured and made manifest by the
defendant’s failure or inability to adapt to his social
and cultural environment, including medical
7
The four well-established standardized instruments are
Adaptive Behavior Scale - School, Second Edition (ABS-Schools),
published by AAIDD, Adaptive Behavior Assessment System Third Edition (known as the ABAS-3), Scales of Independent
Behavior - Revised (known as the SIB-R), and Vineland
Adaptive Behavior Scales - Third Edition (known as the
Vineland-3). See Clinical Assessments in Atkins Cases at 137778.

8
histories, behavioral records, school tests and reports,
and testimony regarding past behavior and family
circumstances”).
By contrast, there is widespread clinical consensus
disfavoring reliance on information provided by the
individual herself in assessing adaptive functioning,
because numerous studies and clinical experience
have shown that individuals with intellectual
disability are unreliable in describing or assessing
their own abilities, and tend to overstate their past
and present abilities and accomplishments. See
Clinical Assessments in Atkins Cases (collecting
clinical sources); Marc J. Tassé et al., The Construct
of Adaptive Behavior: Its Conceptualization,
Measurement, and Use in the Field of Intellectual
Disability, 117 Am. J. Intell. & Dev. Disabilities 291,
296 (2012) [hereinafter “Construct of Adaptive
Behavior”] (same); AAIDD-11 at 51 (“Self-ratings of
individuals—especially those individuals with higher
tested IQ scores [within the intellectual disability
range]—may contain a certain degree of bias and
should be interpreted with caution when determining
an individual’s level of adaptive behavior.”).
3. Age of Onset.
The third criterion for
intellectual disability requires that an individual’s
deficits be present before the person reaches
adulthood—that is, before the age of 18. AAIDD-11
at 6; DSM-5 at 31. “The vast majority of people with
the level of intellectual impairment to satisfy the first
prong of the definition—and the deficits in adaptive
behavior to satisfy the second prong—first
experienced their disability in childhood, and for
some, the cause can be traced back to their birth or
their genetic make-up.” Clinical Assessments in
Atkins Cases at 1336-37. “The only individuals who

9
are excluded from the category by the age of onset
requirement are individuals whose disability can be
traced to events during adulthood,” such as dementia
or brain injuries due to post-adolescence accidents.
Id. at 1337.
B. Clinical judgment plays an essential role
in the diagnosis of intellectual disability.
There is also unanimous professional consensus
that “[c]linical judgment is essential” to the diagnosis
of intellectual disability. AAIDD-11 at 29; see also id.
at 40 (“It must be stressed that the diagnosis of ID is
intended to reflect a clinical judgment rather than an
actuarial determination. A fixed point cutoff score for
ID is not psychometrically justifiable.”); DSM-5 at 37
(“The diagnosis of intellectual disability is based on
both clinical assessment and standardized testing of
intellectual and adaptive functions.” (emphases
added)); see generally Robert L. Schalock & Ruth
Luckasson, Clinical Judgment 15 (2d ed. 2014)
[hereinafter “Clinical Judgment”]. Clinical judgment
is as critical to the assessment of intellectual
functioning and age of onset as it is to the assessment
of adaptive functioning, particularly for retrospective
assessments. See DSM-5 at 37 (“Clinical training
and judgment are required to interpret test results
and assess intellectual performance.”); Intellectual
Disability and the Death Penalty at 140 (explaining
that evaluator must exercise clinical judgment in
determining age of onset retrospectively).
Far from being subjective, clinical judgment is “a
special type of judgment rooted in a high level of
clinical expertise and experience and judgment that
emerges directly from extensive training, experience
with the person, and extensive data.” AAIDD-11 at

10
29; see also id. at 40. Indeed, “[t]he purpose of
clinical judgment is to enhance the quality, validity,
and precision of the clinician’s decision or
recommendation in situations related to diagnosis,
classification, and planning supports.”
Clinical
Judgment at 15. To that end, clinical judgment is
rooted in objective criteria, see AAIDD-11 at 90-102,
that “provide the basis for valid and precise decisions
and recommendations,” Ruth Luckasson & Robert L.
Schalock, Standards to Guide the Use of Clinical
Judgment in the Field of Intellectual Disability, 53
Intell. & Dev. Disabilities 240, 247 (2015).
The central role of clinical judgment is also
reflected in the professional standards and
qualifications for experts testifying in Atkins cases.
See Intellectual Disability and the Death Penalty at
156-57.
“In light of the heightened need for
reliability in capital sentencing, it is particularly
important to promote the highest quality of
assessment and to minimize unnecessary variation
from accepted professional standards.” Richard J.
Bonnie, The American Psychiatric Association's
Resource Document on Mental Retardation and
Capital Sentencing: Implementing Atkins v. Virginia,
32 J. Am. Academy Psychiatry & Law 304, 307 (2004)
(citation and internal quotation marks omitted).
“The expert selected or appointed to conduct mental
retardation evaluations in capital cases should be a
psychiatrist or psychologist who is qualified by
training and experience to make a diagnosis of
mental retardation.
The testing of intellectual
functioning and adaptive behavior should be carried
out by clinicians who have the necessary skill and
experience.” Id. What is more, it is up to the experts
to make “certain that their testimony and methods

11
upon which it rests meet the [Daubert or other]
relevant standards of admissibility.” Intellectual
Disability and the Death Penalty at 151. To that end,
“[t]here are a number of professional resources and
materials to which all mental health experts involved
in an intellectual disability determination must refer
and adhere,” including the American Psychological
Association’s Ethical Principles of Psychologists and
Code of Conduct (2017) and Specialty Guidelines for
Forensic Psychology (2013), and the American
Educational Research Association’s Standards for
Educational and Psychological Testing (2014). Id.
(citing sources).
II. The Beyond A Reasonable Doubt Standard
Creates
An
Unacceptable
Risk
That
Individuals With Intellectual Disability Will
Be Executed By Inviting Jurors To Rely On
Stereotypes That Are Inconsistent With
Accepted Clinical Norms.
Because intellectual disability is a complex
condition requiring a comprehensive assessment of
multiple criteria and application of clinical judgment,
proving its existence beyond a reasonable doubt to a
lay person will often prove impossible, even when a
clinician would have high confidence in the diagnosis.
As this Court has said, “even if the particular
standard-of-proof catchwords do not always make a
great difference in a particular case, adopting a
standard of proof is more than an empty semantic
exercise.” Addington v. Texas, 441 U.S. 418, 425
(1979) (citation and internal quotation marks
omitted). Indeed, in striking down application of the
beyond a reasonable doubt standard to civil
commitment proceedings, this Court recognized that

12
“[t]he subtleties and nuances of psychiatric diagnosis
render certainties virtually beyond reach in most
situations.” Id. at 430.
The same is true here. In practice, Georgia’s
outlier requirement that an individual prove
intellectual disability beyond a reasonable doubt, Ga.
Code Ann. § 17-7-131(c)(3), is irreconcilable with the
accepted clinical standards for diagnosing intellectual
disability. The Georgia pattern jury instructions
state that a reasonable doubt can arise from
“consideration of the evidence, a lack of evidence, or a
conflict in the evidence.” 2 Georgia Suggested Pattern
Jury Instructions-Criminal 1.20.10 (2019) (emphasis
added).
That standard invites jurors to ignore
clinical consensus, allowing them to rely on one or
multiple factors that are indisputably inconsistent
with the clinical diagnostic standards to find that an
individual does not have intellectual disability.
The problem is particularly acute for individuals
with “mild” intellectual disability. 8 This Court has
left no doubt that “[m]ild levels of intellectual
disability, although they may fall outside Texas
citizens’ consensus, nevertheless remain intellectual
Amici do not contend that it would always be impossible for a
jury to find that any individual has intellectual disability
beyond a reasonable doubt. As documented in the clinical
literature, there are individuals who have such profound
intellectual disability that they may, for example, not have
functional use of objects, be able to communicate only through
nonverbal, nonsymbolic communication, and depend on others
for all aspects of daily physical care, health, and safety. See
DSM-5 at 36. But, as explained above, it is for individuals with
non-profound intellectual disability that Georgia’s beyond a
reasonable doubt standard poses an “unacceptable risk” that
individuals with intellectual disability will be executed.
8

13
disabilities,” and are protected by the Atkins right.
Moore I, 137 S. Ct. at 1051 (citing Hall, 572 U.S. at
718-19; Atkins, 536 U.S. at 308 &n.3; AAIDD-11 at
153).
And clinical literature establishes that
“[e]ssentially all the individuals in the criminal
justice system—and therefore all the defendants in
Atkins cases—fall within the same sub-category,
‘mild.’” Clinical Assessments in Atkins Cases at 1320
(citing Marc J. Tassé, Adaptive Behavior Assessment
and the Diagnosis of Mental Retardation in Capital
Cases, 16 Applied Neuropsychology 114, 117 (2009)
[hereinafter “Adaptive Behavior Assessment”); see
also Martha E. Snell & Ruth Luckasson et al.,
Characteristics and Needs of People with Intellectual
Disability Who Have Higher IQs, Intell. & Dev.
Disabilities 220, 220 (2009) (explaining that the
group of people with intellectual disability who have
higher IQs make up about 80% to 90% of all
individuals with intellectual disability).
This Court need look no further than Mr.
Raulerson’s case to see that the beyond a reasonable
doubt standard invites prosecutors to point to, and
juries to find, the meager doubt required by focusing
on one or more lay stereotypes or on seemingly
inconsistent diagnostic evidence, even though, under
accepted clinical standards, such evidence would not
preclude a diagnosis of intellectual disability.
1. First, the prosecutor in Mr. Raulerson’s case
urged the jury to find reasonable doubt on the ground
that any given IQ test has a standard error of
measurement.
The low score, [the defense expert]
wanted you to believe that the score was
75, that if it was below 75, you are

14
retarded, but then he admitted that,
really, it’s 70 to 75, and, in fact, the
other book, DSM-4, said approximately
70. He set out that the reason the other
one, the American Association for the
Mentally Retarded, says 75, the reason
they
say
75,
is
because
it’s
approximately 70 plus or minus 5, and
he says 75, but he never would
acknowledge that when you go plus or
minus, that means it could drop down to
65, and that is because psychologists
cannot be sure, cannot be certain of IQ.
There are too many factors involved.
They’re discussing the mind, and there
is no way to be certain that certain
things exist or do not exist. . . . [The
defense expert] says that he tested him,
and for the most part, the main test, the
comprehensive IQ test he says he gave
him, was 69 plus or minus 5 points,
which means it’s just as likely that it
was over 70 as it is just as likely that it
was under 70. Now he gives five tests.
The question is, why the overkill? Why
all of those IQ tests if one provides the
valid test? I submit it’s just simply, if
they can come in—If they say it enough
times with enough tests, maybe
somebody will believe it.
Raulerson v. Terry, No. 05-57 (S.D. Ga. Filed May 2,
2008), ECF No. 31-127 at 143-44.
Yet, as explained above and by this Court, see
supra 4-5, the clinical diagnostic standards take into
account that an IQ score is properly viewed as a

15
range, not one number. And, in any event, there is
unanimous professional consensus that IQ tests alone
cannot prove or disprove intellectual disability. See
supra 4-5; Hall, 572 U.S. at 723; DSM-5 at 37;
AAIDD-11 at 31.
2. Second, the prosecutor in Mr. Raulerson’s case
also urged the jury to find reasonable doubt on the
basis that Mr. Raulerson was depressed and having
problems sleeping when he took the IQ tests.
But keep in mind that certain emotional
factors can affect one’s ability to take an
IQ test or any other test; depression and
inability to sleep, being two major ones,
and the third one being that, you know,
he’s in jail awaiting a trial on three
counts of murder.
These affect IQ
scores. . . . Although he tested him
many different times, it was all within a
couple of months of each other, but the
place was the same place each and
every time. Although he gave him five
tests, every time he gave him that test,
he was at the Ware County Jail. Every
time he gave him that test, he was
depressed, because he didn’t treat him
for depression. Every time he gave him
that test, he was having inability to
sleep. . . . The defendant is depressed,
not sleeping well, awaiting trial for
three murders.
ECF No. 31-127 at 144-46.
But there is a clear clinical consensus that the
diagnosis and existence of any form of mental illness
in an individual cannot preclude a diagnosis of

16
intellectual disability. DSM-5 at 31, 39-40; AAIDD11.
There is also abundant clinical literature
describing the high incidence of comorbid depression
in individuals with intellectual disability. See DSM-5
at 40; Clinical Assessments in Atkins Cases at 1342
n.151 (citing Anton Dosen & Jan J. M. Gielen,
Depression in Persons with Mental Retardation:
Assessment and Diagnosis, in Mental Health Aspects
of Mental Retardation: Progress in Assessment and
Treatment 70 (Robert J. Fletcher & Anton Dosen
eds., 1993); Sigan L. Hartley & William E. MacLean,
Jr., Depression in Adults with Mild Intellectual
Disability: Role of Stress, Attributions, and Coping,
114 Am. J. Intell. & Dev. Disabilities 147 (2009);
Steven Reiss & Betsey A. Benson, Psychosocial
Correlates of Depression in Mentally Retarded Adults:
I. Minimal Social Support and Stigmatization, 89
Am. J. Mental Deficiency 331 (1985)).
Indeed, relying on that clear consensus, this Court
in Moore I found that “many [people with intellectual
disability] also have other mental or physical
impairments,
for
example,
attentiondeficit/hyperactivity disorder, depressive and bipolar
disorders, and autism.” 137 S. Ct. at 1051 (citing
DSM–5
at
40
(“[c]o-occurring
mental,
neurodevelopmental,
medical,
and
physical
conditions are frequent in intellectual disability, with
rates of some conditions (e.g., mental disorders,
cerebral palsy, and epilepsy) three to four times
higher than in the general population”); AAIDD–11,
at 58–63)).
3. Third, the prosecutor in Mr. Raulerson’s case
urged the jury to find reasonable doubt on the ground
that the expert interviewed Mr. Raulerson’s mother
and father to assess his adaptive functioning.

17
The
other
criteria
for
mental
retardation is deficits in social skills or
adaptive social behavior, and for that,
Dr. Grant interviews the defendant’s
mother and father, people who have a
stake in something that will benefit the
defendant, a test that is biased at the
very least.
ECF No. 31-127 at 146.
That is also inconsistent with accepted clinical
standards. The standardized measures for assessing
adaptive behavior involve “obtaining information
regarding the individual’s adaptive behavior from a
person or persons who know the individual well,”
including family members, teachers, employers, and
friends. AAIDD-11 at 47; see supra 7-8. Indeed,
“[t]he ideal respondents” for purposes of assessing
adaptive functioning “are individuals who have the
most knowledge of the individual’s everyday
functioning across settings.”). See Adaptive Behavior
Assessment at 119.
4. Fourth, the prosecutor in Mr. Raulerson’s case
urged the jury to find reasonable doubt based on a
slew of lay stereotypes about Mr. Raulerson,
including that he had a job, was married, and could
keep a secret:
Another question: “Keeps secrets for
more than one day.” They said, the
parents said, sometimes he does, but we
know now from the evidence that for
seven months Billy Daniel Raulerson
harbored one of the most terrible secrets
any person could ever harbor, and that
is that he killed three people brutally.

18
. . . We know he was married, we know
he had a child. We know he worked as
a roofer. Dr. Grant kept talking about
routine work. He worked as a roofer.
He worked as a carpenter on a horse
barn that was being built by Andy
Taylor. Freddie Hickox indicated that
after he worked for him, he went to
work with Andy Taylor, building a horse
barn, doing carpenter work. He worked
for three months in the summer of 1990
for Freddie Hickox, working an inverted
routed that Freddie Hickox said he
caught on to doing in five minutes, and
the very first day there on the job he
made the production level. I submit to
you that’s not retarded.
ECF No. 31-127 at 147-48.
As this Court has recognized, the uniform clinical
consensus rejects such incorrect lay stereotypes about
what constitutes intellectual disability. Moore I, 137
S. Ct. at 1052. Some of these debunked stereotypes
are that individuals with intellectual disability: look
and talk differently from persons in the general
population; are completely incompetent and
dangerous; cannot do complex tasks; cannot get a
driver’s license, buy cars, or drive cars; cannot
support their families; cannot offer romantic love or
receive romantic love; and cannot acquire vocational
and social skills necessary for independent living.
Clinical Judgment at 42.
Other debunked
stereotypes are that individuals with intellectual
disability cannot: graduate high school, get and keep
a job, get married, have children, and manage money.
Intellectual Disability and the Death Penalty at 6-8.

19
5. Fifth, the prosecutor in Mr. Raulerson’s case
urged the jury to find reasonable doubt on the ground
that Mr. Raulerson had some adaptive strengths,
such as the ability to communicate in writing and the
ability to tell right from wrong.
One of the things you’ll have is these
letters [Mr. Raulerson wrote while he
was in jail.] . . . It’s a two-page letter
about a cooler. It’s obvious then that
cooler was pretty important to him, but
he was able to write a two-page letter
about a cooler, and there are some other
letters in here. You look at them.
Examine
the
handwriting,
the
punctuation, the use of words, the
sentence structure, and you’ll see Billy
Daniel Raulerson is not retarded. . . .
The defendant knows right from wrong.
You heard even Daniel Grant have to
admit that. He knows it is wrong to
kill. He knows that if he does wrong, he
will be punished for it . . . .
ECF No. 31-127 at 150, 156.
Again, this Court has recognized that focusing on
an individual’s adaptive strengths rather than
deficits is a distortion of the clinical diagnostic
standards. See supra 6-7. “[T]he medical community
focuses the adaptive-functioning inquiry on adaptive
deficits.” Moore I, 137 S. Ct. at 1050 (citing AAIDD–
11 at 47; DSM–5 at 33, 38; Brumfield v. Cain, 135 S.
Ct. 2269, 2281 (2015) (“[I]ntellectually disabled
persons may have strengths in social or physical
capabilities, strengths in some adaptive skill areas, or
strengths in one aspect of an adaptive skill in which

20
they otherwise show an overall limitation.” (internal
quotation marks and citation omitted))).
6. Sixth, the prosecutor in Mr. Raulerson’s case
urged the jury to find reasonable doubt on the basis
that Mr. Raulerson pretended to have intellectual
disability.
I submit that what you’ve got here is,
the test results of Lower and Grant are
not valid indication of Billy Daniel
Raulerson’s true IQ. They do not reflect
his IQ when he was 26 years of age,
because he wasn’t motivated, he wasn’t
trying, he didn’t care to try. . . . He lied
to the psychologist about this head
injury, and if he lied about that, he lied
about other things on that psychological
report, including faking on or trying not
to do well on these tests.
ECF No. 31-127 at 145-46, 151.
That, too, is inconsistent with accepted clinical
standards. See supra 8. It is well-documented that,
rather than “malingering”—or pretending to have
intellectual disability—individuals with intellectual
disability instead “have a tendency to overestimate
their competence and adaptive skills in an effort to
appear more capable than they may actually be.”
Construct of Adaptive Behavior at 296; see generally
Robert B. Edgerton, The Cloak of Competence (2d ed.
1993). That is why “there is a widespread consensus
that warns against reliance on self-reports in
assessing adaptive functioning for purposes of
diagnosing intellectual
disability.”
Clinical
Assessments in Atkins Cases at 1385 & n.315 (citing
clinical sources); Construct of Adaptive Behavior at

21
296 (“[V]irtually all experts in the assessment of
adaptive behaviors agree with this position.”));
AAIDD-11 at 51.
7. Finally, the prosecutor in Mr. Raulerson’s case
urged the jury to find reasonable doubt on the basis
that Mr. Raulerson had not been diagnosed as having
intellectual disability before he was in prison.
The burden is on the defendant to prove
his mental retardation beyond a
reasonable doubt, and they cannot do it
because it is not the truth.
That
reasonable doubt is that the defendant
went to the Waycross School System,
the Waycross School System, the Ware
County School System—nor did anyone
else; the Mental Health Center—and no
one ever diagnosed him as being
mentally retarded until Daniel Grant
came along in the summer of 1995. He’s
sitting in jail a year.
ECF No. 31-127 at 153-54.
Yet there is a well-established medical consensus
that, although the disability must have manifested
during the developmental period of life, the definition
does not require that there have been IQ tests or
formal assessments of adaptive deficits while the
individual was a child. See Clinical Assessments in
Atkins Cases at 1338 & n.138 (citing Adaptive
Behavior Assessment at 115 (“It should be noted that
‘originated during the developmental period’ does not
preclude making a first time diagnosis of mental
retardation when an individual is an adult. The
clinician must, however, adequately document that
the deficits in intellectual and adaptive functioning

22
were present before the end of the developmental
period.”); Matthew H. Scullin, Large State-Level
Fluctuations in Mental Retardation Classifications
Related to Introduction of Renormed Intelligence Test,
111 Am. J. Mental Retardation 322, 331 (2006)
(“There is no professionally recognized requirement
for a developmental period classification of mental
retardation or developmental period IQs in the
mental retardation range from childhood to establish
mental
retardation.”);
Daniel
J.
Reschly,
Documenting the Developmental Origins of Mild
Mental Retardation, 16 Applied Neuropsychology
124, 124 (2009) (“Persons can, of course, be properly
diagnosed as MR as adults even if no official
diagnosis can be found over the ages of birth to 18,
but evidence must exist that the condition of MR
existed before age 18.”); Clinical Judgment at 37-41).
***
There is consensus among mental health
professionals, already deemed valid by this Court,
about how properly to diagnose individuals with
intellectual disability. The diagnostic criteria reflect
that intellectual disability is a complex condition
characterized by a wide range of clinical
presentations.
They require a comprehensive
assessment of multiple criteria and application of
clinical judgment. In many cases, then, a diagnosis of
intellectual disability does not reflect uniform
evidence or a near-absolute certainty, as required by
a burden of proof beyond a reasonable doubt. By
requiring capital defendants to prove intellectual
disability beyond a reasonable doubt, Georgia invites
jurors to ignore this clinical consensus, allowing them
to rely on one or multiple factors that are
indisputably irreconcilable with the clinical

23
diagnostic standards to find that an individual does
not have intellectual disability. From a professional
diagnostic standpoint, then, Georgia’s standard of
proof creates significant risks that individuals with
intellectual disability will be executed in violation of
the Eighth Amendment.
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for a writ of certiorari.
February 27, 2019

Respectfully submitted,
DONALD B. VERRILLI, JR.
Counsel of Record
ADELE M. EL-KHOURI
MUNGER, TOLLES & OLSON
LLP
1155 F Street NW 7th Floor
Washington, D.C. 20004
(202) 220-1100
Donald.Verrilli@mto.com
Counsel For Amici Curiae

APPENDIX

1a
The Disability Rights Legal Center (DRLC) is
a nonprofit legal organization founded in 1975 to
represent and serve people with disabilities.
Individuals with disabilities continue to struggle with
ignorance, prejudice, insensitivity, and lack of legal
protections
in
their
endeavors
to
achieve
fundamental dignity and respect. DRLC assists
people with disabilities in obtaining equality of
opportunity and maximizing independence via the
benefits and protections guaranteed under the
Americans with Disabilities Act, the Rehabilitation
Act of 1973, the Individuals with Disabilities
Education Act, the Unruh Civil Rights Act, and other
state and federal laws.
DRLC is widely
acknowledged as a leading disability public interest
organization and it participates in various amici
curiae efforts in cases affecting the rights of people
with disabilities.
The National Disability Rights Network
(NDRN) is the non-profit membership organization
for the federally mandated Protection and Advocacy
(P&A) and Client Assistance Program (CAP) agencies
for individuals with disabilities. The P&A and CAP
agencies were established by the United States
Congress to protect the rights of people with
disabilities and their families through legal support,
advocacy, referral, and education. There are P&As
and CAPs in all 50 states, the District of Columbia,
Puerto Rico, and the U.S. Territories (American
Samoa, Guam, Northern Mariana Islands, and the
US Virgin Islands), and there is a P&A and CAP
affiliated with the Native American Consortium
which includes the Hopi, Navajo and San Juan
Southern Paiute Nations in the Four Corners region
of the Southwest. Collectively, the P&A and CAP

2a
agencies are the largest provider of legally based
advocacy services to people with disabilities in the
United States.
The Center for Public Representation (CPR)
is a public interest law firm that has assisted people
with disabilities for more than 40 years. CPR uses
legal strategies, systemic reform initiatives, and
policy advocacy to enforce civil rights, expand
opportunities for inclusion and full community
participation, and empower people with disabilities to
exercise choice in all aspects of their lives. CPR is
both a statewide and a national legal backup center
that provides assistance and support to public and
private
attorneys
representing
people
with
disabilities in Massachusetts and to the federally
funded protection and advocacy programs in each of
the States. CPR has litigated systemic cases on
behalf of persons with disabilities in more than 20
states and submitted amici briefs to the United
States Supreme Court and many courts of appeals in
order to enforce the constitutional and statutory
rights of persons with disabilities, including those
involved in the criminal justice system.
The Georgia Advocacy Office (GAO) is the
appointed Protection and Advocacy System for the
State of Georgia. Its mission is to work with and for
oppressed and vulnerable individuals in Georgia who
are labeled as disabled or mentally ill to secure their
protection and advocacy.
Brigadier General (Ret) Stephen N. Xenakis,
M.D., L.L.C. is an adult, child, and adolescent
psychiatrist and retired from the U.S. Army in 1998
at the rank of Brigadier General. He serves on the
Executive Board of the Center for Ethics and Rule of

3a
Law at the University of Pennsylvania Law School,
the editorial board of the Journal of the American
Academy of Psychiatry and Law, and is an Adjunct
Professor at the Uniformed Services of Health
Sciences (USUHS) of the military medical
department.
James R. Merikangas, M.D. is board certified in
both neurology and psychiatry, with more than 45
years experience in the practice of neuropsychiatry.
He is currently Clinical Professor of Psychiatry and
Behavioral Science at the George Washington
University School of Medicine in Washington, D.C.
Dr. Merikangas’s primary clinical interest is the
evaluation and treatment of patients with complex
brain-behavior problems. He has been engaged in
forensic evaluations in both civil cases and the
criminal justice system, with particular expertise in
the neural basis of aggressive and violent behavior,
and has qualified as an expert witness in many state
and federal courts. While on the faculty of the
University of Pittsburgh, he was the medical
consultant to the Mental Retardation Clinic. As a
founding member of the American Academy of
Neuropsychiatry, he established guidelines for
routine evaluation of patients with complex brain
disorders in neuropsychiatry comprised of neurologic
examinations, neuroimaging, and neuropsychological
evaluations. Dr. Merikangas is a past President of
the American Academy of Clinical Psychiatrists,
Fellow of the American College of Physicians, Fellow
of the American Neuropsychiatric Association, and
Distinguished Life Fellow of the American
Psychiatric Association. He has won the National
Alliance on Mental Illness Distinguished Clinician
Award for his contribution to clinical care of people

4a
with neuropsychiatric disorders. He is the author of
more than 36 scientific publications, 22 invited book
reviews, 8 book chapters, and edited a book entitled
Brain-Behavior Relationships.
Steven Eidelman is the H. Rodney Sharp
Professor of Human Services Policy and Leadership
at the University of Delaware and the co-founder and
Faculty Director of The National Leadership
Consortium on Developmental Disabilities. He is a
past President of the American Association on
Intellectual and Developmental Disabilities (AAIDD)
and serves as Senior Advisor to the Chairman of
Special Olympics International. He also serves as the
Executive Director of The Joseph P. Kennedy, Jr.
Foundation. His recent efforts have focused on
leadership development for practicing intellectual
and developmental disability professionals and on
implementation of Article 19 of the United Nations
Convention on the Rights of Persons with
Disabilities, focusing on deinstitutionalization. He
was the Pennsylvania state government official in
charge when Pennhurst State School and Hospital
was closed and has served as an expert witness on
Olmstead-based deinstitutionalization litigation. His
professional
interests
focus
on
professional
development of disability professionals and on
deinstitutionalization and the development of
community supports for people with intellectual
disability. He holds an MSW from The University of
Maryland, an MBA from Loyola University
Baltimore, and a Post-Masters Certificate in the
Administration of Social Services from Temple
University.

